=
{

2311 Douglas Street CC ~~ oo E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

Omaha, Nebraska 68102-1214
Est. 1923

Web Site

1-800-225-6964
www.cocklelegalbriefs.com

(402) 342-2831
Fax; (402) 342-4850

No. 20-1596

TAYLOR LOHMEYER LAW FIRM PLLC,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF IN SUPPORT
OF PETITION FOR A WRIT OF CERTIORARI in the above entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook
12 point for the text and 10 point for the footnotes, and this brief contains 2991 words, excluding

the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 31st day of August, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

Kepte. 0. Laas? On teawh, Ohl

Affiant 41398

       

GENERAL NOTARY-State of Nebraska
RENEE J. GOSS

mamlobeme my Comm. Exp. September 5, 2023

    

Notary Public
